                                                         IG-00-048




AUDIT
                                CONTRACTOR EXPORTS OF
REPORT                         CONTROLLED TECHNOLOGIES

                                   September 19, 2000




                           OFFICE OF INSPECTOR GENERAL

National Aeronautics and
Space Administration
Additional Copies


To obtain additional copies of this report, contact the Assistant Inspector General for Auditing
at (202) 358-1232, or visit www.hq.nasa.gov/office/oig/hq/issuedaudits.html.

Suggestions for Future Audits

To suggest ideas for or to request future audits, contact the Assistant Inspector General for
Auditing. Ideas and requests can also be mailed to:

        Assistant Inspector General for Auditing
        Code W
        NASA Headquarters
        Washington, DC 20546-0001

NASA Hotline

To report fraud, waste, abuse, or mismanagement contact the NASA Hotline at (800) 424-9183,
(800) 535-8134 (TDD), or at www.hq.nasa.gov/office/oig/hq/hotline.html#form;
or write to the NASA Inspector General, P.O. Box 23089, L’Enfant Plaza Station, Washington,
DC 20026. The identity of each writer and caller can be kept confidential, upon request, to the
extent permitted by law.

Reader Survey

Please complete the reader survey at the end of this report or at
http://www.hq.nasa.gov/office/oig/hq/audits.html.



Acronyms

EAA                 Export Administration Act
EAR                 Export Administration Regulations
ECP                 Export Control Program
GAO                 General Accounting Office
ISS                 International Space Station
ITAR                International Traffic in Arms Regulations
NPD                 NASA Policy Directive
NPG                 NASA Procedures and Guidelines
OIG                 Office of Inspector General
W                                                                                  September 19, 2000


TO:               A/Administrator

FROM:             W/Inspector General

SUBJECT:          INFORMATION: Contractor Exports of Controlled Technologies
                  Assignment Number A9903301
                  Report Number IG-00-048


The NASA Office of Inspector General has completed an audit of Contractor Exports1 of
Controlled Technologies. We found that two of the three major NASA contractors2 that we
reviewed, TRW Space and Electronics Group (TRW) and Lockheed-Martin Michoud Space
Systems (Lockheed-Martin), have adequate export control programs in place to ensure that
exports of controlled technologies are effected in compliance with applicable laws and
regulations. TRW and Lockheed-Martin have (1) developed effective export control policies,
(2) established export control training programs, and (3) maintained required export records
that were readily available for review. The third contractor, Boeing Space and Communications
Group (Boeing) may not have complied with applicable export laws and regulations when
exporting controlled items on behalf of the International Space Station (ISS) Program.
Specifically, Boeing was unable to readily produce records related to exports of controlled
technologies. Further, on two of the six3 NASA-obtained export licenses related to the ISS,
Boeing potentially effected exports of controlled technologies beyond the scope of the licenses.
NASA, therefore, lacks assurance that Boeing's export activities on behalf of the Agency for the
ISS Program are being performed in full compliance with applicable export laws and
regulations.

Background

NASA's international activities often involve the transfer of commodities, software, or
technologies to foreign partners not only by NASA, but also by its contractors.4 The
1
  Exports are transfers of any commodities, software, or technologies to foreign entities and include items
such as flight hardware and software, propulsion systems, and spacecraft systems and associated
equipment.
2
  See Appendix E for details on the specific contracts selected for review.
3
  For the ISS Program, Boeing has effected exports against a total of five NASA-obtained export licenses
and one special comprehensive license (see details on this type of license in footnote 14).
4
  See Appendix C for situations in which controlled technologies are exported in support of NASA
programs.
                                                                                                   2

transfers are generally subject to export control laws and regulations, regardless of whether they
occur in the United States, overseas, or in space. Export controls are imposed on such
transfers and activities in order to protect the national security and to further U.S. foreign policy
objectives.

In 1995, NASA established an Export Control Program (ECP). The “NASA Export Control
Program” pamphlet, dated November 1995 (revised October 1998), establishes policies and
procedures on an Agency-wide basis to ensure that NASA’s exports and transfers to foreign
parties and international activities are consistent with the requirements of the Department of
State's, International Traffic in Arms Regulations (ITAR) and the Department of Commerce's,
Export Administration Regulations (EAR). NASA contractors are responsible for following the
same U.S. export laws and regulations.

Recommendations

We recommended that management require Boeing to establish an appropriate export control
program and a detailed company-wide export policy that comply with all EAR requirements
prior to authorizing Boeing to utilize NASA-obtained export licenses on behalf of the ISS
program. We also recommended that management direct the ISS Program Office, in
coordination with the Center Export Administrator, to periodically review Boeing's and its
subcontractors' export control programs to ensure that exports effected against NASA-
obtained licenses in support of the ISS Program are being accomplished in accordance with
applicable U.S. export laws and regulations.

Management's Response

Management concurred with the recommendations and provided comments on our finding (see
Appendix H). Management questioned whether some of the examples detailed in the report
were in fact export violations. We reaffirm our position that the examples of export shipments
detailed in the report could represent possible export violations because of the disparities in
explanations provided by management and the inconsistencies in the available supporting
documentation. Our detailed response to management's comments is in
Appendix I of the report.




[original signed by]
Roberta L. Gross

Enclosure
 Final Report on Audit of Contractor Exports of Controlled Technologies
          FINAL REPORT
AUDIT OF CONTRACTOR EXPORTS OF
  CONTROLLED TECHNOLOGIES
W                                                                        September 19, 2000


TO:            I/Associate Administrator for External Relations
               AA/Director, Lyndon B. Johnson Space Center

FROM:          W/Assistant Inspector General for Auditing

SUBJECT:       Final Report on Audit of Contractor Exports of Controlled Technologies
               Assignment Number A9903301
               Report Number IG-00-048


The subject final report is provided for your information and use. Our evaluation of your
response is incorporated into the body of the report and into Appendix I. The corrective actions
planned for the recommendations are responsive. The recommendations will remain open for
reporting purposes until corrective actions are completed. Please notify us when action has been
completed on the recommendations, including the extent of testing performed to ensure corrective
actions are effective.

If you have questions concerning the report, please contact Mr. Kevin J. Carson, Program
Director, Safety and Technology Audits, at (301) 286-0498, or Mr. Timothy L. Bailey, Auditor-
in-Charge, at (301) 286-3355. We appreciate the courtesies extended to the audit staff. The
final report distribution is in Appendix J.




[original signed by]
Russell A. Rau

Enclosure
                                                     2

cc:
B/Chief Financial Officer
B/Comptroller
BF/Director, Financial Management Division
G/General Counsel
H/Associate Administrator for Procurement
JM/Acting Director, Management Assessment Division
M/Associate Administrator for Space Flight
Y/Associate Administrator for Earth Science
100/Director, Goddard Space Flight Center
DA01/Director, Marshall Space Flight Center
                           NASA Office of Inspector General

IG-00-048                                                                               September 19, 2000
 A9903301

                 Contractor Exports of Controlled Technologies

Introduction

The NASA Office of Inspector General (OIG) has completed an audit of Contractor Exports of
Controlled Technologies, which we conducted as part of the overall audit of Contractor Control
of Sensitive Technologies (controlled technologies). This report is the second and final report
on the audit.5 The audit objective discussed in this report was to determine whether major
contractors have established adequate controls over NASA's controlled technologies to
preclude unauthorized or unlicensed exports.

The majority of exports are governed and controlled by either the Office of Defense Trade
Controls at the Department of State or the Bureau of Export Administration at the Department
of Commerce. The Bureau's EAR state that when an export license is issued to a particular
person or entity, that person or entity becomes the licensee. The licensee is accountable for the
use of the license, whether as a principal (exporting for own account) or as an agent. The
licensee assumes responsibility for effecting the export and appropriately using the license and
for due performance of all of the license's terms and conditions.

Appendix A contains further details on the audit objectives, scope, and methodology.

Results in Brief

Two of the three major NASA contractors that we reviewed, TRW and Lockheed-Martin,
have adequate export control programs in place to ensure that exports of controlled
technologies are effected in compliance with applicable laws and regulations. TRW and
Lockheed-Martin have (1) developed effective export control policies, (2) established export
control training programs, and (3) maintained required export records that were readily
available for review. The third contractor, Boeing, needs to improve its export control program
in order to prevent the potential unauthorized or unlicensed transfers of controlled technologies
related to NASA's ISS Program. NASA, therefore, lacks assurance that Boeing's export
activities on behalf of the Agency for the ISS Program are being performed in full compliance
with applicable export laws and regulations.



5
 The results of the first audit are discussed in Audit Report IG-00-018, "NASA Oversight of Contractor
Exports of Controlled Technologies," March 23, 2000 (see Appendix B for details).
Background

NASA's international activities often involve the transfer of commodities, software, or
technologies to foreign partners not only by NASA, but also by its contractors.6 The transfers
are generally subject to export control laws and regulations, regardless of whether they occur in
the United States, overseas, or in space. Export controls are imposed on such transfers and
activities in order to protect the national security and to further U.S. foreign policy objectives.

The Department of State's Office of Defense Trade Controls is responsible for controlling items
identified on the U.S. Munitions List7 pursuant to the International Traffic in Arms Regulations
(ITAR).8 The Commerce Department's Bureau of Export Administration controls items that are
identified on the Commerce Control List9 pursuant to the EAR.10
Appendix D contains further details on the U.S. Munitions List and Commerce Control List.

NASA's Office of External Relations has overall Agency responsibility for ensuring the
compliance of all NASA program activities and exports with U.S. export control laws and
regulations. NASA Center Directors are responsible for appointing a Center Export
Administrator to ensure full compliance of all Center program activities with applicable export
laws and regulations.

The NASA ECP establishes policies and procedures on an Agency-wide basis to ensure that
NASA’s exports and transfers to foreign parties and international activities are consistent with
the requirements of the ITAR and EAR. NASA contractors are responsible for following the
same U.S. export laws and regulations. An essential part of the ECP is the establishment of
mechanisms within the Agency (including the Centers) that provide checks and safeguards at
key steps in program development and implementation, helping to better manage international
program initiatives. Such oversight helps to ensure that NASA export personnel ask the right
questions to preclude NASA officials and contractors from effecting transfers that may be
contrary to U.S. export controls or that may be inconsistent with requirements of the ITAR and
EAR.




6
  See Appendix C for situations in which controlled technologies are exported in support of NASA
programs.
7
  U.S. Munitions List, April 1999, identifies items designated by the President to be defense articles and
services.
8
  The ITAR provide guidance for controlling the export and import of defense articles and services.
9
  The Commerce Control List, October 1999, identifies “dual-use” items that have military/strategic and civil
applications.
10
   The EAR implement the export and re-export requirements of the Export Administration Act (EAA) of
1979, as amended (Note: Although the EAA expired in September 1990; the provisions of the EAR are
continued under the authorities of the International Emergency Economic Powers Act, which states “the
administration of section 38 (e) of the Arms Export Control Act (22 U.S.C. 2778 (e) shall remain in full force
and effect until amended or revoked under proper authority.”)


                                                      2
Contractor Exports of Controlled Technologies

Finding. Boeing may not have complied with applicable export laws and regulations when
exporting controlled items on behalf of the ISS Program. Specifically, Boeing was unable to
readily produce records related to exports of controlled technologies. Further, on two of the
six11 NASA-obtained export licenses related to the ISS, Boeing potentially effected exports of
controlled technologies beyond the scope of the licenses. This condition exists because Boeing
did not have effective company policies in place with regard to exports. In addition, NASA
does not provide oversight of Boeing's export control program, even though NASA is the
licensee for several ISS-related export licenses. As a result, exports of controlled technologies
by Boeing in support of the ISS Program have been effected in potential noncompliance with
U.S. export laws and regulations.

ISS Contract Requirements

NASA's ISS contract (NAS15-10000) with Boeing, Clause H.5, "Export of Technical Data,
Computer Software, or Hardware in the Conduct of Space Station Related Activities," states:

                 When such a need arises, NASA may exercise the applicable
                 exemptions, general licenses, existing NASA export licenses or other
                 approvals available to a Federal agency under the U.S. export control
                 laws, and may effect the export of such technical data, computer
                 software, or hardware provided for NASA by direction to the
                 contractor. When directed in writing by the Contracting Officer, or
                 designated representative, the Contractor, acting as an agent of NASA
                 for the purposes of export control, shall export on behalf of NASA
                 specifically identified technical data, computer software, or hardware to
                 a named foreign entity or person, in the manner and under the
                 conditions provided for in the direction. Further, the Contractor agrees
                 to include this clause in all Space Station related subcontracts, the
                 performance of which may require the development, delivery, or use of
                 technical data, computer software, or hardware.


Although this clause requires Boeing to comply with applicable export laws and regulations,
NASA is responsible for the proper use of any export license that the Agency has obtained and
is the identified licensee.

Export Administration Regulations

The EAR governs most export activities in support of the ISS Program. The EAR, Part 736.2,
"General Prohibitions and Determination of Applicability," states that "you may not, without a
license or license exception, export any item subject to the EAR to another country or reexport
any item of U.S. origin if the item is controlled for a reason indicated in the applicable Export

11
  For the ISS Program, Boeing has effected exports against a total of five NASA-obtained export licenses
and one special comprehensive license (see details on this type of license in footnote 14).


                                                     3
Control Classification Number." Part 758.3, "Shippers Export Declaration," states that a
Shippers Export Declaration must be submitted by the exporter or the duly authorized
forwarding agent of the exporter, to the Commerce Department's, Foreign Trade Division,
Bureau of the Census. The Shippers Export Declaration is a statement to the U.S. Government
asserting that information on the specific item being exported as shown on the declaration is
true.

Part 762, "Recordkeeping," requires the retention of records related to individual export
licenses and the exports effected against those licenses. The records must be retained for 5
years and must be originals, unless the licensee complies with certain requirements related to
reproductions. Part 762 also states:

                 Persons located in the United States may be asked to produce records
                 that are required to be kept by any provision of the EAR, or any license,
                 order, or authorization issued thereunder and to make them available for
                 inspection and copying by any authorized agent, official, or employee
                 of the Bureau of Export Administration, the U.S. Customs Service, or
                 any other agency of the U.S. Government, without any charge or
                 expense to such agent, official, or employee.

Availability of Boeing's Export Records

Boeing was unable to readily provide for our review the records and supporting documentation
related to exports effected on NASA licenses in support of the ISS program. Specifically,
Boeing was unable to produce complete records and supporting documentation related to
exports effected against two of the six NASA-obtained export licenses for the ISS program.
Boeing's Huntington Beach, California, facility, in particular, could not readily provide the
records. As part of the audit, we informed NASA and Boeing officials of our intention to
review supporting records and documentation for export activities related to the ISS contract.12
In July 1999, the audit team asked Boeing to provide a complete list of export licenses related
to the ISS contract and the location of the export records associated with the licenses. Boeing
did not provide the OIG with the requested information until September 1999.

Upon receiving the requested license and record location information from Boeing Export
Control officials in Houston, Texas, the audit team notified Boeing of planned visits to its
Huntington Beach, California, and Huntsville, Alabama, facilities with the express purpose of
reviewing export records and supporting documentation. The visits occurred in September
1999. The Huntsville facility gave the audit team access to all requested export-related records
and supporting documentation. However, Boeing Huntington Beach informed the audit team
that the records were not available, may be archived, and could take from 2 to 3 weeks to
retrieve.


12
  We also reviewed similar information for the TRW and Lockheed-Martin contracts reviewed as part of the
audit.


                                                    4
After the Huntington Beach visit, we expressed concern to Boeing officials that we were not
provided access to Huntington Beach’s records. Boeing responded that the Huntington Beach
facility had subsequently located the records and that a shipment to the OIG would be
forthcoming. After receiving two partial, incomplete shipments of records, the OIG issued a
subpoena to Boeing for the records on October 8, 1999.

Boeing Huntington Beach should have appropriately maintained the records and made them
available for our review in accordance with the requirements of Part 762 of the EAR. In
contrast to Boeing (Huntington Beach), TRW and Lockheed-Martin gave the audit team free
access to export records and related supporting documentation. Both contractors had available
for OIG review, all records and supporting documentation related to NASA exports as
required by the EAR.

The NASA Contracting Officer for the Boeing ISS Contract took action to notify Boeing that
records related to exports effected on NASA's behalf must be produced in accordance with the
EAR. The Contracting Officer issued a November 15, 1999, letter to Boeing stating:

                 With regard to records of exports you effect on NASA's behalf, we
                 require that you ensure that you can produce these records as required
                 by U.S. export regulations. It has come to our attention that your
                 Huntington Beach site was unable to produce records of NASA exports
                 recently in the course of an audit.


NASA should take follow-up action on this request to ensure that Boeing has an adequate
system in place to ensure it meets the recordkeeping responsibilities of EAR Part 762 for
exports effected by Boeing against NASA-obtained export licenses.

Boeing Exports of Controlled Items

Boeing may have effected exports of controlled items in support of the ISS Program that were
beyond the scope of two NASA-obtained licenses and were in potential noncompliance with
the EAR.13 As the prime contractor for the ISS, Boeing is directed/authorized, by contract
clause, to export controlled technologies. Since award of the ISS contract to Boeing in 1993,
NASA has obtained from the Bureau of Export Administration a total of five export licenses
and one special comprehensive14 license. Boeing has exported ISS Program controlled
technologies using both types of licenses. Although Boeing has effected the exports, NASA is
the licensee15 for both the individual and special comprehensive licenses, and as such, is

13
   The Department of Commerce's Bureau of Export Administration is the final determinant as to whether a
noncompliance with the EAR has occurred.
14
   NASA and approved, related entities use the special comprehensive license, which eliminates the need
for obtaining individual export licenses for every item expected to be exported. The special comprehensive
license identifies foreign cosignees, governments, and organizations authorized to receive NASA controlled
exports and re-exports.
15
   Boeing has also obtained licenses for ISS-related exports for which Boeing is the licensee.


                                                    5
responsible for the proper use of the license, and for due performance of all the license’s terms
and conditions.

Upon receiving the subpoenaed export records and supporting documentation from Boeing, we
initially identified potential noncompliances with the EAR related to a total of 25 shipments of
export controlled items effected against two of the six NASA-obtained licenses. The potential
noncompliances included shipped items that were not included on the referenced license, items
shipped in excess of amounts identified on the license, and items shipped without appropriate
supporting documentation. After discussing these potential noncompliances with NASA
management, Boeing provided additional information to satisfy our concerns with all but nine
shipments. The nine shipments that are in potential noncompliance with the EAR are discussed
below:

NASA Export License D219490. NASA-obtained export license D219490 from the
Department of Commerce's Bureau of Export Administration on April 4, 1995. The license
authorized NASA to ship five line items of ISS-related hardware with a total value of about
$2.9 million to the Russian Space Agency and its related contractors. Our review of exports
effected against this license identified a total of eight shipments made in potential noncompliance
with the EAR. Problems identified with these eight shipments include (1) items shipped in
excess of amounts identified on the license (2) items shipped that were not on the license, (3)
items shipped prior to receiving a license amendment, and (4) incomplete shipping records.
Some of the specific items follow:

•   Multiplexer/Demultiplexer (MDM) - The Shippers Export Declaration, dated April
    17, 1995, indicates that Honeywell, a Boeing subcontractor, shipped two MDM's with a
    total value of $760,000 to a Russian Space Agency contractor. Export license D219490
    authorized the shipment of two MDM's but at a total value of $400,000. When we asked
    Boeing to explain the discrepancy in the value of the items shipped, Boeing initially stated
    that the additional $360,000 consisted of "cables and connectors and loose items." When
    Johnson Space Center (Johnson) Export Officials questioned the excessive dollar amount
    associated with the cables, connectors, and loose items, Boeing responded that the
    shipment actually consisted of one MDM at $200,000, and two Space Station MDM
    Application Test Environment (MATE)-3 items at $1.2 million or a total of $1.4 million.
    License D219490 authorized the shipment of three MATE-3 items at a total value of $1.8
    million. This revised explanation from Boeing places the value of the controlled items listed
    on license D219490 at $1.4 million, almost double the amount listed on the Shippers Export
    Declaration. Based on the inconsistencies of Boeing’s explanations and the $640,000
    difference between the Shippers Export Declaration and the items listed on license
    D219490, we cannot conclude that the controlled items were actually shipped against the
    license. In addition, Honeywell shipped these items prior to being approved as a consignor
    to license D219490. The shipments were made on April 17, 1995, but amendment 7 to the
    license, which authorized Honeywell as a consignor, was not authorized by the Bureau of
    Export Administration until June 12, 1996, or more than 1 year later.


                                                 6
•   Wire Harness Assembly - Boeing made a shipment of six wire harness assemblies valued
    at $22,800 to a Russian Space Agency contractor on June 3, 1996. The license contained
    no authorization for this item. Boeing stated that the item did not require an export license in
    accordance with the EAR. When Johnson Export Officials stated that previous shipments
    of wire harnesses had been licensed, Boeing replied that the wire harness assembly is made
    of wire that does not require a license and connectors that do require a license. The
    packing list and cargo specification sheet for the shipment identifies the wire harness
    assembly as a controlled item requiring an export license. Boeing was also unable to locate
    the Shippers Export Declaration for this item.

NASA Export License D238777. NASA obtained export license D238777 from the
Department of Commerce's Bureau of Export Administration on June 3, 1997. The license
authorized NASA to ship nine line items of ISS-related hardware with a total value of about
$15 million to the Russian Space Agency and its related contractors. Our review of exports
effected against this license identified one shipped item that was not authorized on the license.
The details follows:

•   Thermal Protection Blankets - Boeing was unable to locate the Shippers Export
    Declaration for this shipment. Our review of available documentation such as the
    Requisition and Invoice/Shipping Documents related to this license showed that Boeing
    shipped thermal protection blankets with a value of $9,650 to a contractor for the Russian
    Space Agency. The blankets were not authorized on export license D238777 (the license
    was referenced by Boeing on the shipping document). Boeing stated that freight forwarders
    prepared the Shippers Export Declaration and that Boeing did not retain a copy. When we
    asked Boeing why these items were not authorized by the license, Boeing responded that
    the items did not require a license. However, documentation related to the items clearly
    showed that the items should be controlled in accordance with the EAR and required an
    export license.

Exports of the items discussed above represent potential noncompliances with the EAR.
Appendix F contains details on additional exports of controlled items by Boeing or its
subcontractors that are in potential noncompliance with the EAR. NASA should take
appropriate actions to ensure that Boeing's exports on behalf of the ISS Program are effected in
compliance with applicable laws and regulations.

Boeing's Commercial Exports

We identified similar areas of potential noncompliance with regard to commercial exports
effected by Boeing with licenses it obtained for the ISS Program. Boeing maintains an ISS
commercial program through which the ISS Program Office allows Boeing to market similar and
sometimes identical technologies developed under the NASA ISS contract to foreign partners
involved in the ISS program. Boeing follows the same export policies regardless of whether the


                                                 7
export is on a Boeing- or NASA-obtained license. Our review of exports related to Boeing’s
commercial program identified records and supporting documentation that were either not
readily available or incomplete. In addition, Boeing made exports that were beyond the scope
of the export license. Appendix G of the report provides details on the potential
noncompliances we identified. Although contractors are responsible for ensuring that their
export activities are in compliance with U.S. export laws and regulations, NASA management
should be concerned that technology developed under a NASA contract is being exported to
foreign entities under a contractor's commercial program in potential noncompliance with
applicable laws and regulations.

Boeing's Export Policies

Boeing’s export control policies did not effectively outline the necessary requirements for
ensuring that exports of controlled technologies are effected in accordance with applicable laws
and regulations. Boeing's export policies, as described in Boeing Policy, “Export and Import of
Hardware, Software, Technical Data and Services,” are not specific. For example, the policies
identify the responsibilities of various Boeing officials as related to export control; however, the
policies do not identify detailed export procedures, the required forms, and export control
documentation needed for the export process. In addition, the policies do not address exports
effected by subcontractors or oversight of subcontractor exports. Boeing officials stated that it
is the subcontractors’ responsibility to ensure that export controls are in compliance with the
EAR.

Boeing officials acknowledged that the company's export policies lack detailed, descriptive
procedures that could aid employees who encounter export control issues. These same officials
stated that Boeing will develop a detailed corporate export compliance manual that will contain
export policies for Boeing employees to use in ensuring compliance with U.S. export laws and
regulations. NASA should ensure that Boeing has adequate export policies in place prior to
authorizing Boeing to utilize NASA-obtained licenses on behalf of the ISS program.

Lack of NASA Oversight of Boeing's Export Activities

NASA has not performed sufficient oversight of Boeing's export activities even though the
Agency is the licensee for six licenses (including the special comprehensive license) that Boeing
uses in support of the ISS Program. As the licensee, NASA is responsible for the proper use
of the license and for due performance of all of the license’s terms and conditions.

As described in the NASA Export Control Program Pamphlet, oversight helps ensure that the
right questions are asked to preclude NASA officials and contractors from effecting exports that
may be contrary to U.S. export controls or inconsistent with the requirements of the EAR. The
pamphlet requires NASA Headquarters and the Centers to appoint an export control auditor
who, on an annual basis, reviews the Center's export control program to ensure its adequacy.
Although the pamphlet states that oversight is necessary to preclude contractors from effecting


                                                 8
exports that may be in noncompliance with applicable laws and regulations, the pamphlet has no
specific provision for the review of contractor export control programs by the export control
auditor. NASA has not reviewed Boeing or its subcontractors export control programs. As a
result, NASA is relying on Boeing and its subcontractors to ensure that exports effected against
NASA-obtained licenses are in compliance with applicable export laws and regulations.

Actions Taken by NASA Management

After we notified NASA management that several exports effected by Boeing against two
NASA-obtained export licenses were in potential noncompliance with the EAR, the Agency
took some corrective actions. For example, in March 2000, the Johnson Export Services
Team initiated a system to track licensed hardware, software, and data against actual shipping
information. This system provides a database for tracking all items on a particular license
including authorized quantities and dollar amounts. Upon receipt of shipping documents such as
the Shippers Export Declaration, the Export Services Team enters into the database actual
information on dollar amounts and quantities shipped. The database alerts Johnson export
officials who use it when the quantities or dollar amounts on the shipping documents exceed the
scope of the export license.

Initiatives such as the Johnson database system should help ensure that exports effected against
NASA-obtained licenses are in compliance with applicable export laws and regulations. In
addition, NASA management has actions planned as a result of a previous OIG audit 16 to
improve Agency oversight with respect to contractor exports of controlled technologies.
NASA should take further steps to ensure that Boeing and its subcontractors have effective
controls in place to make certain that exports effected on NASA-obtained licenses in support of
the ISS Program are accomplished in accordance with applicable U.S. export laws and
regulations.

Recommendations, Management’s Response, and Evaluation of
Response

1. The Associate Administrator for External Relations should require Boeing to
establish an appropriate export control program and a detailed company-wide export
policy that comply with all EAR requirements prior to authorizing Boeing to utilize
NASA-obtained export licenses on behalf of the ISS program.

Management's Response. Concur. Boeing established a company-wide export control
manual that has been reviewed by Johnson officials. These officials found the manual to be
satisfactory in regard to Boeing being authorized to effect exports under NASA licenses.


16
 The results of the audit are in Audit Report IG-00-018, "NASA Oversight of Contractor Exports of
Controlled Technologies," March 23, 2000 (see Appendix B for details).


                                                    9
Management questioned whether some of the examples detailed in the report were, in fact,
export violations and provided additional information to support its position.

The complete text of management’s response is in Appendix H.




                                             10
Evaluation of Management’s Response. Management’s planned actions are responsive to
the recommendation. The recommendation is resolved, but will remain undispositioned and
open for reporting purposes until corrective actions are completed. We reaffirm our position
that the examples of export shipments detailed in the report could represent possible export
violations because of the disparities in explanations provided by management and the
inconsistencies in the available supporting documentation.

We address management’s additional comments on the finding in Appendix I.

2. The Associate Administrator for External Relations, in conjunction with the
Director, Lyndon B. Johnson Space Center, should direct the ISS Program Office in
coordination with the Center Export Administrator to periodically review Boeing's and
its subcontractors' export control programs to ensure that exports effected against
NASA-obtained licenses in support of the ISS Program are being accomplished in
accordance with applicable U.S. export laws and regulations.

Management's Response. Concur. NASA Headquarters will provide direction to the ISS
Program Office, in coordination with the Johnson Center Export Administrator, to periodically
review Boeing and its applicable subcontractors' export programs for those exports authorized
by NASA under NASA-obtained licenses (see Appendix H).

Evaluation of Management’s Response. Management’s planned actions are responsive to
the recommendation. The recommendation is resolved, but will remain undispositioned and
open for reporting purposes until corrective actions are completed.




                                              11
              Appendix A. Objectives, Scope, and Methodology

Objectives

Our objective, as discussed in this report, was to determine whether major contractors have
established adequate controls over controlled technologies to preclude unauthorized or
unlicensed exports. This is the second report issued as part of the overall audit of Contractor
Control of Sensitive Technologies. Details on the findings and recommendations in the previous
report are in Appendix B.

Scope and Methodology

We reviewed export policies for selected contractors to determine contractor compliance with
the ITAR and EAR. We also obtained an overall understanding of selected contractors' export
control programs and how the contractors export controlled technology on behalf of NASA.
During the audit, we:

•   Identified and reviewed NASA and selected contractors’ export policies, in addition to the
    ITAR and EAR.

•   Reviewed export licenses, applications, and supporting documentation, dated from 1992
    through 1999, at both NASA and contractor locations.

•   Interviewed personnel in NASA’s Office of External Relations and program, contracting,
    and export officials at Goddard Space Flight Center (Goddard), Johnson, and Marshall
    Space Flight Center (Marshall).

•   Interviewed program, contracting, and export officials at Lockheed-Martin, Boeing, and
    TRW.

•   Interviewed personnel with the Defense Contract Management Agency at Lockheed-
    Martin, Boeing, and TRW.

Management Controls Reviewed

We reviewed the following management controls relative to NASA and contractor exports of
controlled technologies:

       •     NASA Policy Pamphlet, “NASA Export Control Program,” November 1995
             (revised October 1998).

       •     TRW Space and Electronics Group’s Export/Import Compliance Manual.



                                              12
Appendix A

       •   TRW Space and Electronics Group’s Export and Import Compliance Pamphlet.

       •   Boeing Company-Wide Procedures, PRO-2805, “Export of Hardware, Software,
           Technical Data, and Services,” June 29, 1999.

       •   Lockheed Martin Acquisition Procedure LMAP 2.230, “Procurements with
           Foreign Suppliers.”

       •   Lockheed Martin Michoud Space Systems Standard Procedure 6-13, “Export
           Requirements."

       •   U.S. Export Administration Regulations, January 1998

       •   International Traffic in Arms Regulations, April 1999

Audit Field Work

We conducted field work on this portion of the audit from November 1999 through
June 2000 at NASA Headquarters, Goddard, Johnson, and Marshall. We visited contractor
locations in Huntsville, Alabama; New Orleans, Louisiana; Houston, Texas; and Huntington
Beach and Redondo Beach, California. We performed the audit in accordance with generally
accepted government auditing standards.




                                              13
                 Appendix B. Summary of Prior Audit Coverage

NASA Office of Inspector General

“NASA Oversight of Contractor Exports of Controlled Technologies,” IG-00-018,
March 23, 2000. The report states that NASA export, program, and contracting personnel at
Goddard, Johnson, and Marshall could not readily identify the types and amounts of NASA-
funded controlled technologies that contractors export in support of NASA programs. This
condition exists because NASA’s current export policies do not clearly define the Agency’s
oversight responsibilities regarding its contractors who export controlled technologies.
Consequently, NASA does not have assurance that contractors are exporting controlled
technologies in accordance with applicable U.S. export laws and regulations. The report
contains two recommendations to assist the Agency in ensuring that controlled technologies are
exported in accordance with applicable laws and regulations. Management concurred with both
recommendations.

“NASA Control of Export Controlled Technologies,” IG-99-020, March 31, 1999. The
report states that NASA has not identified all export-controlled technologies related to its major
programs and does not maintain a catalog of classifications for transfers of export-controlled
technologies. Also, Agency oversight of and training for personnel in the Export Control
Program need improvement. Specifically, annual audits of each NASA Center’s export control
systems were not adequately performed, and NASA personnel lack training in controlling and
documenting export-controlled technologies. The report contains six recommendations to assist
NASA in addressing export-controlled technologies. Management concurred with all
recommendations.

General Accounting Office (GAO)

“Export Controls – International Space Station Technology Transfers,” GAO/NSIAD-
00-14, November 1999. The House of Representatives Committee on Science requested that
GAO review NASA’s implementation of Federal export regulations. The Department of
Commerce has issued nine validated licenses to NASA to export specific items and one special
comprehensive license. The special comprehensive license allows NASA to export certain
preapproved items without seeking Commerce’s approval each time NASA needs to export
them for the ISS program. The special comprehensive license has been used only once, even
though its purpose was to preclude the need for individual licenses.

The GAO also reported that NASA erroneously authorized the export of radiation-hardened
electronic parts to a Russian firm in 1997 without obtaining a license from the Department of
State. Further, NASA’s internal and external reviews of Agency export control activities have
identified weaknesses. The GAO made one recommendation to improve the quality of
NASA’s internal audits of Agency export control activities.



                                                14
      Appendix C. Situations in Which Controlled Technologies are
                               Exported

1. NASA exports controlled technologies on its own behalf. NASA exports controlled
technologies on its behalf, usually for in-house programs and projects. In this situation, NASA
is the exporter of record. NASA is responsible for administration and oversight of the export
licenses that it obtains from either the Department of State or Department of Commerce.

2. NASA grants license exemptions (for licenses from State Department only). In
some cases, NASA can grant contractors authorization to export controlled technologies
without obtaining licenses from the State Department. As a Government agency, NASA is
entitled to certain license exemptions not available to industry. NASA, in turn, utilizes its
exemptions to make it easier for contractors to export controlled technologies for NASA
programs.

3. NASA obtains export license, and contractors effect the exports. For certain
programs, such as the ISS, NASA can obtain a single or special comprehensive export license
from the Commerce Department. This process enables contractors, pursuant to contract
direction/authority, to export controlled technologies to NASA’s international partners. NASA
is the exporter of record and is responsible for administration and oversight of the license.

4. Contractor obtains export license from the Departments of State or Commerce for
NASA-funded programs. Contractors directly obtain the export licenses for controlled
technologies to be transferred to foreign entities. In this situation, the contractor is the license
holder and exporter of record. The contractor is also responsible for administration of the
export license.

5. Contractor obtains export license from the Departments of State or Commerce for
NASA-funded technologies exported commercially. For certain programs such as the ISS,
the contractor commercially markets hardware and software containing NASA-funded
controlled technologies. In this situation, the contractor is the license holder and exporter of
record and is responsible for administration of the export license.




                                                 15
                  Appendix D. Laws, Regulations, and Guidance
                      Relating to Controlled Technologies

Arms Export Control Act, 22 U.S.C. § 2778. The Arms Export Control Act authorizes the
President to control the export of defense articles and services. This authority has been
delegated to the State Department, which implements the Act through the ITAR. Defense
articles and services subject to the Act are identified in broad categories on the U.S. Munitions
List. Violations of the Act are punishable by debarment; fines of up to $500,000; and
imprisonment up to 10 years.

Export Administration Act of 1979, as amended, 50 U.S.C., Appendix 2401-2420. The
Export Administration Act (EAA) is a legal authority underlying the Export Administration
Regulations (EAR). (The EAA expired in September 1990; however, the provisions of the
EAR are continued under the authorities of the International Emergency Economic Powers Act,
which states “the administration of section 38 (e) of the Arms Export Control Act (22 U.S.C.
2778 (e) shall remain in full force and effect until amended or revoked under proper authority.”)

U.S. EAR, 15 Code of Federal Regulation (CFR), Part 730. The Commerce
Department’s Bureau of Export Administration issues the EAR under laws relating to the control
of exports and re-exports. The EAR were designed to implement the Export Administration
Act of 1979. The term "dual-use" distinguishes the types of items covered by the EAR from
those covered by regulations of certain other U.S. Government departments and agencies with
export licensing responsibilities. The term dual-use also distinguishes EAR-controlled items that
can be used in military and other strategic uses and in civil applications from those that are
weapons and are for military-related use or designs subject to the controls of the State
Department. The export items are classified in at least 1 of the 10 categories of the Commerce
Control List:

    •     Category 0 - Nuclear Materials, Facilities and Equipment, and Miscellaneous
    •     Category 1 - Materials, Chemicals, Microorganisms, and Toxins
    •     Category 2 - Materials Processing
    •     Category 3 - Electronics
    •     Category 4 - Computers
    •     Category 5 - Telecommunications and Information Security
    •     Category 6 - Lasers and Sensors
    •     Category 7 - Navigation and Avionics
    •     Category 8 – Marine
    •     Category 9 – Propulsion Systems, Space Vehicles, and Related Equipment




                                                16
Appendix D

International Traffic in Arms Regulations (ITAR), 22 CFR, Parts 120-130. The Bureau
of Political-Military Affairs, Office of Defense Trade Controls, Department of State, issues the
ITAR to control the export and import of defense articles and defense services. The President
shall designate the articles and services deemed to be defense articles and services. These
defense articles and services constitute the U.S. Munitions List, a subpart of the ITAR. The
intended use of the article or service after its export is not relevant in determining whether the
article or service is subject to the controls of the ITAR. The defense articles or services fall into
1 of the 21 categories of
the U.S. Munitions List:

        •   Category 1 - Firearms
        •   Category 2 - Artillery Projectors
        •   Category 3 - Ammunition
        •   Category 4 - Launch Vehicles, etc.
        •   Category 5 - Explosives, Propellants, Incendiary Agents, and Their Constituents
        •   Category 6 - Vessels of War and Special Naval Equipment
        •   Category 7 - Tanks and Military Vehicles
        •   Category 8 - Aircraft and Associated Equipment
        •   Category 9 - Military Training Equipment
        •   Category 10 - Protective Personnel Equipment
        •   Category 11 - Military Electronics
        •   Category 12 - Fire Control, Range Finder, Optical and Guidance and Control
            Equipment
        •   Category 13 - Auxiliary Military Equipment
        •   Category 14 - Toxicological Agents and Equipment and Radiological Equipment
        •   Category 15 - Spacecraft Systems and Associated Equipment
        •   Category 16 - Nuclear Weapons Design and Related Equipment
        •   Category 17 - Classified Articles, Technical Data, and Defense Services Not
            Otherwise Enumerated
        •   Category 18 - Reserved
        •   Category 19 - Reserved
        •   Category 20 - Submersible Vessels, Oceanographic, and Associated Equipment
            Category
        •   Category 21 - Miscellaneous Articles




                                                 17
                  Appendix E. Contracts Selected for Review

We reviewed the following three contracts as part of the audit.

Contractor/Contract                                           Location of         Cognizant
     Number                    Description/Value             Performance         NASA Center
Boeing Missiles and       International Space Station     Houston, TX
Space Division,           Alpha Program                   Huntington Beach, CA     Johnson
NAS5-10000                $7.1 billion                    Huntsville, AL
                                                          Canoga Park, CA
TRW, NAS5-32954           Earth Observing System          Redondo Beach, CA        Goddard
                          Common Spacecraft
                          $396 Million
Lockheed-Martin           Space Shuttle External Tanks New Orleans, LA             Marshall
Michoud Space             $3.7 billion
Systems, NAS8-
36200




                                               18
    Appendix F. Controlled ISS Parts and Equipment Exported in Potential
           Noncompliance with EAR on NASA-obtained Licenses

Export License/Bill
of Lading Shipment               Description of Export        Destination
     Number                                                    of Export    Area of Noncompliance
 License-D219490
    D-1,902,298                   Model Multiplexer             Russia      Item not listed on Export
                                Demultiplexer (MDM) –                               License
                                           4
       D-1,902,516               Field Test Connector           Russia          Recordkeeping –
                                                                                Complete shipping
                                                                            records were not available
       D-1,902,718                 SPDSU-PROD*                  Russia       Item not listed on export
                                      Hardware                                        license
       D-1,902,756                 SPDSU-PROD                   Russia       Item not listed on export
                                      Hardware                                        license
       D-1,902,732              Wire Harness Assembly           Russia       Item not listed on export
                                                                                      license

                                                                                Recordkeeping –
                                                                                Complete shipping
                                                                            records were not available
       D-1,902,735                 6B Box Mounting              Russia          Recordkeeping –
                                     Hardware Kit                               Complete shipping
                                (2 each) and Connector                      records were not available
                                           Kit
       D-1,902,757                  SPDSU-PROD                  Russia      Item not listed on export
                                       Hardware                                      license
       D-3,004,162               SS Model Multiplexer           Russia      Item not listed on export
                                Demultiplexer (MDM)-4                                license
                                      FGB Spare
    License-D238777
      D-3,004,725                   Thermal Blankets            Russia       Item not listed on export
                                                                                      license
                                                                                Recordkeeping –
                                                                                Complete shipping
                                                                            records were not available
*
    Serial Parallel Digital Simulation Unit Production




                                                         19
Appendix G. Boeing ISS Commercial Program Exports


                                                              Shipments in
   License and                                                  Potential
  Description of   Destination of    Shipments Against    Noncompliance with
     Export           Export          Export License               EAR
    D240166            Japan               146           98 shipments -
                                                         Complete shipping
 Connectors and                                          documents not
  Accessories                                            available.
   D220611             Japan               180           68 shipments -
                                                         Complete shipping
 Connectors and                                          documents not
  Accessories                                            available.

                                                         Dollar value of
                                                         shipments exceeds
                                                         dollar value scope of
                                                         export license by $4.95
                                                         million
    D234914            Japan                1            1 shipment - Complete
                                                         shipping documents not
PTCS Temperature                                         available.
    Sensors
   D234917             Japan                1            1 shipment – Complete
                                                         shipping documents not
PTCS Temperature                                         available.
    Sensors




                                    20
Appendix H. Management’s Response




               21
     Appendix H




22
         Appendix H




See Appendix I,
OIG Comment 1




See Appendix I,
OIG Comment 2




                      23
     Appendix H




             See Appendix I,
             OIG Comment 3




24
            Appendix H




 See Appendix I,
 OIG Comment 4




See Appendix I,
OIG Comment 5




See Appendix I,
OIG Comment 6




                         25
     Appendix H




26
Appendix H




             27
         Appendix I. OIG Comments on Management’s Response

NASA management provided the following comments in response to our draft report. Our
responses to the comments are also provided.

Management’s Comment. NASA personnel at the Johnson Space Center reviewed the
Boeing policies in place in the summer of 1999. At that time, Boeing was in the process of
bringing the export compliance programs of several other acquired companies into the Boeing
corporate structure, and there were a number of export policies in effect. Management believes
that the report should state that Boeing did not, at the time of the audit, have company-wide,
standardized procedures in place to establish consistency and traceability for exports. Boeing
currently has a company-wide export manual in place.

1. OIG Comments. We interviewed export control and International Space Station (ISS)
Officials at Johnson on July 7, 1999. During the interview, those officials informed us that they
had not formally reviewed Boeing's export policies and procedures. Boeing officials further
confirmed that, prior to July 7, 1999, Johnson export control and ISS officials had not reviewed
Boeing's export policies and procedures.

Management’s Comment. The estimated dollar amount on the license for three
Multiplexer/Demultiplexer (MDM) Application Test Environments (MATE's) ($1.8 million) was
based on a Boeing conservative estimate of $600,000 per MATE. The value on Honeywell's
Requisition and Invoice/Shipping Document (DD-1149) that is associated with this license is
$710,000 for two MATE's, or $355,000 each. This does not constitute a potential export
violation.

The Shippers Export Declaration indicates that a MATE and associated equipment was
shipped. The two Honeywell-prepared DD-1149s for this shipment indicate that the actual
items shipped were: one Mass Equivalent Model (MEM) MDM, and two MATE's. The total
dollar value of the two DD-1149s is $760,000, as stated on the Shippers Export Declaration.
The value is made up of the two MATE's at $355,000 each and one MEM MDM at $50,000.

Through further fact finding after the auditor's initial questioning of this shipment, Boeing
demonstrated (based on the DD-1149s) that the shipment consisted of one MEM MDM and
two MATE's. While the value of the corresponding items in the approved License (D219490)
total $1.4 million, the value of the same licensed items in the shipment is $760,000. The value
on the license of $600,000 per MATE was Boeing’s estimate as provided to NASA and was
the value NASA used in applying for the license. The license value is generally used as a "not to
exceed" value for the shipment. This dollar amount difference is in favor of the exports effected
by Boeing’s subcontractor Honeywell. The value of the items exported did not exceed the
value authorized by the license. The DD-1149s show what items were shipped and are
consistent with the items listed under License D219490.



                                               28
Appendix I

2. OIG Comments. It is our opinion that the MDM may not have been shipped in
accordance Export License D219490 due to the inconsistencies of Boeing's explanations of
shipments. Since our initial questioning of Honeywell's (Boeing's subcontractor) shipment of the
MDM's, we have received three different explanations of the shipments from Johnson/Boeing
export officials. The initial explanation we received from Boeing was that Honeywell shipped
two MDM's at a total value of $760,000 to a Russian Space Agency contractor when export
license D219490 authorized the shipment of two at a total value of $400,000. Boeing officials
explained the dollar value discrepancy by stating that the additional $360,000 consisted of
cables, a connector, and loose items. Johnson export officials also questioned this initial
explanation by Boeing. Boeing subsequently provided a revised explanation that Honeywell
shipped MDM and MATE items, which according to the export license were valued at $1.4
million. We again questioned this explanation because the Shippers Export Declaration
indicated that the value of the shipment was only $760,000, or almost half the value of the items
listed on license D219490. In its most recent explanation, Boeing again asserts that Honeywell
shipped two Mate's with a value of $710,000 ($355,000 each) and one MDM with a value of
$50,000 for a total shipment valued at $760,000, which is within the dollar and quantity scope
of the export license. However, those items were identified in license D219490 as having a
value of $1.4 million, or a $640,000 difference between the license and the Shippers Export
Declaration. We believe that Boeing's inconsistent explanations cast doubt as to whether this
shipment was made in accordance with U.S. export laws and regulations. Further, as stated in
the finding discussion, Honeywell shipped these items prior to being approved by the Bureau of
Export Administration as a consignor to license D219490.

Management’s Comment. A wire harness assembly is composed of connectors, wire, and
cable. The wire harness assembly sent to Russia was specialized because of the attached
amphenol connectors. These connectors were licensed under D219490. The wire harness
assembly parts list was previously provided to the auditors to show that the connectors were
part of the assembly.

3. OIG Comments. We reviewed available documentation on this shipment such as the DD-
1149 and Packing List Cargo Specification Sheet. Both documents clearly show that the wire
harness assembly items were shipped as controlled items under license D219490, even though
the export license does not list the items. Further, Boeing was unable to produce the Shippers
Export Declaration, which would definitively identify whether the wire harness assembly items
were shipped against license D219490. Our position is further strengthened by documentation
related to Boeing's commercial exports effected for the ISS Program which showed that wire
harness assemblies were shipped against export licenses. In addition, when we first questioned
this shipment, Johnson export officials




                                               29
                                                                                      Appendix I

responded that previous shipments of wire harness assemblies by Boeing had been licensed.
Because of the conflicting explanations and the lack of a Shippers Export Declaration, we
maintain our position that the wire harness assembly items were shipped without an export
license.

Management’s Comment. A May 9, 2000, letter from Chemfab Corporation, the
manufacturer of the Beta Cloth fabrics (thermal protection blankets), to Boeing, indicates that
when used as intended, these products do not require an export license. The fabrics are used
extensively in aerospace applications. The Requisition and Invoice/Shipping Document
erroneously lists License D238777 as the license authority for the export of the blankets. It is
management’s understanding that these items were not subject to a license requirement and
should have been shipped "No License Required."

4. OIG Comments. We reviewed the available documentation on this shipment such as the
DD-1149 and Packing List Cargo Specification Sheet. Both documents clearly show that the
thermal blankets were shipped as controlled items under license D238777, even though the
license does not list the items. Boeing was unable to produce the Shippers Export Declaration,
which would identify whether the thermal blankets were shipped against license D238777.
Management's response includes a letter, obtained after our initial questioning of the shipment,
from the manufacturer of the blanket's fabric. The letter states that to the "best of our
knowledge," the products do not require a license. Our conclusion that the thermal blankets
were shipped without the benefit of an export license is based on the incomplete shipping
documentation, which indicated that the thermal blankets were controlled items and were
shipped under license D238777.

Management’s Comment. NASA has previously provided data to the OIG to demonstrate
that these items were approved by the Department of Commerce in license D219490,
Amendment 3, as part of "MATE Hardware Upgrades." Management does not agree that
these shipments are in potential noncompliance with the EAR.

5. OIG Comments. Honeywell's Export Shipping/Invoice and DD-1149 list the descriptions
of the export items as "VME Assembly" and SPDSU Upgrade Kit," not as “MATE Hardware
Upgrades” as listed on Amendment 3 of license D219490. For our audit, we identified eight
export shipments that were specifically listed as “MATE Hardware Upgrades” on Honeywell's
shipping documents and could be clearly traced to license D219490. However, we cannot
conclude that the “VME Assembly and SPDSU Upgrade Kit” were effected against license
D219490 Amendment 3, due to the fact that the item descriptions do not match.




                                                30
Appendix I

Management’s Comment . The SSMDM-4 FGB Spare referenced by the report as "not
listed on export license" was in fact a replacement unit for an MDM found on license D219490,
line item 3. This license authorizes shipment of "2 Space Station FEU [Functional Equivalent
Unit] SS MDM 4 (FEUM4 FGB-1, 2)." The confusion stems from shipping documents for the
SSMDM-4 FGB Spare which indicated both export license D219490 "RPL" (for the EAR
License Exception for replacement units), and Export Control Classification Number "EAR99."
The reference to EAR99 was in error. The correct license authority was cited. A McDonnell
Douglas Aerospace (Boeing), Information Transmittal Sheet dated in July 1997, shows that the
Spare unit was approved for shipment to Russia after completion of rework and inspection
efforts. Management does not agree that this shipment was potentially noncompliant with the
EAR.

6. OIG Comments. It remains our position that the SSMDM-41 FGB Spare may have been
shipped without benefit of an export license. Specifically, our review of the Shippers Export
Declaration showed that Honeywell shipped the SSMDM-41 FGB-Spare on July 24, 1997, or
after the April 1997 expiration date of license D219490. In addition, the description of the
SSMDM-41 FGB-Spare on the Shippers Export Declaration does not match the description
listed on license D219490. Further, the explanation Boeing now provides indicates that
Honeywell shipped an SSMDM-41 FGB Spare valued at $500,508, which exceeded the
dollar value of $350,000 listed on export license D2194990.




                                             31
                         Appendix J. Report Distribution

National Aeronautics and Space Administration (NASA) Headquarters

A/Administrator
AE/Chief Engineer
AI/Associate Deputy Administrator
B/Chief Financial Officer
B/Comptroller
BF/Director, Financial Management Division
G/General Counsel
H/Associate Administrator for Procurement
I/Associate Administrator for External Relations
ID/Director, Assessments and Technology Division
IM/Director, Resources Management Office
J/Associate Administrator for Management Systems
JM/Acting Director, Management Assessment Division
L/Associate Administrator for Legislative Affairs
M/Associate Administrator for Space Flight
P/Associate Administrator for Public Affairs
Q/Associate Administrator for Safety and Mission Assurance
R/Associate Administrator for Aerospace Technology
S/Associate Administrator for Space Science
U/Associate Administrator for Life and Microgravity Sciences and Applications
Y/Associate Administrator for Earth Science
Z/Associate Administrator for Policy and Plans

NASA Centers

Director, Ames Research Center
 Center Export Administrator, Ames Research Center
 Center Export Counsel, Ames Research Center
 Procurement Office, Ames Research Center
Director, Dryden Flight Research Center
 Center Export Administrator, Dryden Flight Research Center
 Center Export Counsel, Dryden Flight Research Center
 Procurement Office, Dryden Flight Research Center
Director, John H. Glenn Research Center at Lewis Field
 Center Export Administrator, John H. Glenn Research Center at Lewis Field
 Center Export Counsel, John H. Glenn Research Center at Lewis Field
 Procurement Office, John H. Glenn Research Center at Lewis Field




                                             32
Appendix J

NASA Centers (Cont.)

Director, Goddard Space Flight Center
 Center Export Administrator, Goddard Space Flight Center
 Center Export Counsel, Goddard Space Flight Center
 Procurement Office, Goddard Space Flight Center
Director, Jet Propulsion Laboratory
 Center Export Administrator, Jet Propulsion Laboratory
 Procurement Office, Jet Propulsion Laboratory
Director, Lyndon B. Johnson Space Center
 Center Export Administrator, Lyndon B. Johnson Space Center
 Center Export Counsel, Lyndon B. Johnson Space Center
 Procurement Office, Lyndon B. Johnson Space Center
Director, John F. Kennedy Space Center
 Center Export Administrator, John F. Kennedy Space Center
 Center Export Counsel, John F. Kennedy Space Center
 Procurement Office, John F. Kennedy Space Center
Director, Langley Research Center
 Center Export Administrator, Langley Research Center
 Center Export Counsel, Langley Research Center Director
 Procurement Office, Langley Research Center Director
Director, George C. Marshall Space Flight Center
 Center Export Administrator, George C. Marshall Space Flight Center
 Center Export Counsel, George C. Marshall Space Flight Center
 Procurement Office, George C. Marshall Space Flight Center
Director, John C. Stennis Space Center
Center Export Administrator, John C. Stennis Space Center
Center Export Counsel, John C. Stennis Space Center
Procurement Office, John C. Stennis Space Center

Non-NASA Federal Organizations and Individuals

Assistant to the President for Science and Technology Policy
Deputy Associate Director, Energy and Science Division, Office of Management and
 Budget
Branch Chief, Science and Space Programs Branch, Energy and Science Division, Office
 of Management and Budget
Associate Director, National Security and International Affairs Division, Defense
 Acquisitions Issues, General Accounting Office
Professional Assistant, Senate Subcommittee on Science, Technology, and Space




                                            33
                                                                                 Appendix J

Chairman and Ranking Minority Member – Congressional Committees and
Subcommittees

Senate Committee on Appropriations
Senate Subcommittee on VA, HUD, and Independent Agencies
Senate Committee on Commerce, Science, and Transportation
Senate Subcommittee on Science, Technology, and Space
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on VA, HUD, and Independent Agencies
House Committee on Government Reform
House Subcommittee on Government Management, Information, and Technology
House Subcommittee on National Security, Veterans Affairs, and International Relations
House Committee on Science
House Subcommittee on Space and Aeronautics, Committee on Science

Congressional Member

Honorable Pete Sessions, U.S. House of Representatives




                                             34
                  NASA Assistant Inspector General for Auditing
                                 Reader Survey

The NASA Office of Inspector General has a continuing interest in improving the usefulness of
our reports. We wish to make our reports responsive to our customers’ interests, consistent
with our statutory responsibility. Could you help us by completing our reader survey? For your
convenience, the questionnaire can be completed electronically through our homepage at
http://www.hq.nasa.gov/office/oig/hq/audits.html or can be mailed to the Assistant Inspector
General for Auditing; NASA Headquarters, Code W, Washington, DC 20546-0001.


Report Title: Contractor Exports of Controlled Technologies

Report Number:                                         Report Date:

Circle the appropriate rating for the following statements.
                                                      Strongl                              Strongl
                                                         y      Agree   Neutra   Disagre   y         N/A
                                                       Agree              l         e      Disagre
                                                                                              e
1.   The report was clear, readable, and logically       5       4        3         2         1      N/A
     organized.
2.   The report was concise and to the point.            5       4        3         2         1      N/A
3.   We effectively communicated the audit               5       4        3         2         1      N/A
     objectives, scope, and methodology.
4.   The report contained sufficient information to      5       4        3         2         1      N/A
     support the finding(s) in a balanced and
     objective manner.


Overall, how would you rate the report?

      Excellent               Fair
      Very Good               Poor
      Good

If you have any additional comments or wish to elaborate on any of the above
responses, please write them here. Use additional paper if necessary.
How did you use the report?




How could we improve our report?




How would you identify yourself? (Select one)

       Congressional Staff                         Media
       NASA Employee                               Public Interest
       Private Citizen                             Other:
       Government:               Federal:             State:         Local:


May we contact you about your comments?

Yes: ______                                     No: ______
Name: ____________________________
Telephone: ________________________


Thank you for your cooperation in completing this survey.
Major Contributors to this Report

Kevin J. Carson, Program Director, Safety and Technology Audits

Timothy L. Bailey, Auditor-in-Charge

Oscar E. Lindley, Auditor

Iris Purcarey, Program Assistant

Nancy C. Cipolla, Reports Process Manager
